            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION



        SINGLE AUDIT OF THE
        STATE OF NEW YORK
     FOR THE FISCAL YEAR ENDED
           MARCH 31, 2004

     December 2005   A-77-06-00003




  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                   SOCIAL SECURITY
MEMORANDUM
Date:   December 21, 2005                                                Refer To:

To:     Candace Skurnik
        Director
        Audit Management and Liaison Staff

From: Inspector General

Subject: Management Advisory Report: Single Audit of the State of New York for the Fiscal Year
        Ended March 31, 2004 (A-77-06-00003)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the State of New York for the Fiscal Year ended March 31, 2004. Our objective
        was to report internal control weaknesses, noncompliance issues, and unallowable
        costs identified in the single audit to SSA for resolution action.

        KPMG LLP performed the audit. The Department of Health and Human Services (HHS)
        desk review concluded that the audit met Federal requirements. In reporting the results
        of the single audit, we relied entirely on the internal control and compliance work
        performed by KPMG LLP and the reviews performed by HHS. We conducted our
        review in accordance with the Quality Standards for Inspections issued by the
        President’s Council on Integrity and Efficiency.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA Number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The New York Disability Determination Services (DDS) performs disability
        determinations under SSA’s DI and SSI programs in accordance with Federal
        regulations. The DDS is reimbursed for 100 percent of allowable costs. The New York
        State Department of Social Services Office of Temporary and Disability Assistance
        (OTDA) is the New York DDS’ parent agency.
Page 2 – Candace Skurnik


The single audit reported that the OTDA:

1. Allocated indirect costs to the New York DDS based on cost allocation plan
   methodologies that were pending HHS’ approval. The corrective action plan
   indicated that OTDA submitted the cost allocation plan to HHS as required and was
   working with the Federal program staff to clarify and resolve issues to get
   outstanding plans approved (see Attachment A, pages 1 through 4).

2. Miscoded payroll expenses in the accounting system which may have resulted in
   improper charges to various Federal programs, including SSA. The corrective action
   plan indicated that the Department will continue to stress the importance of using
   proper accumulator codes, and appropriate corrections were made to the employee
   timesheets (see Attachment A, pages 5 through 8).

We recommend that SSA determine whether:

1. Indirect costs charged to the New York DDS were in accordance with the cost
   allocation plan subsequently approved by HHS, and if appropriate, collect any
   unallowable costs.

2. OTDA’s reviews of miscoded vouchers identified inappropriate charges to the
   New York DDS, and, if appropriate, collect any unallowable costs.

Please send copies of the final Audit Clearance Document to Shannon Agee and Rona
Lawson. If you have questions contact Shannon Agee at (816) 936-5590.




                                              S
                                              Patrick P. O’Carroll, Jr.
Attachments
Attachment A
  Page 1 of 8
Attachment A
  Page 2 of 8
Attachment A
  Page 3 of 8
Attachment A
  Page 4 of 8
Attachment A
  Page 5 of 8
Attachment A
  Page 6 of 8
Attachment A
  Page 7 of 8
Attachment A
  Page 8 of 8
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.

                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.

                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
